<html>
<title> - TAX INCENTIVES FOR HOMELAND SECURITY RELATED EXPENSES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




         TAX INCENTIVES FOR HOMELAND SECURITY RELATED EXPENSES

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE, & TECHNOLOGY

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                     WASHINGTON, DC, JULY 21, 2004

                               __________

                           Serial No. 108-75

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-551                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
PATRICK J. TOOMEY, Pennsylvania      ENI FALEOMAVAEGA, American Samoa
JIM DeMINT, South Carolina           DONNA CHRISTENSEN, Virgin Islands
SAM GRAVES, Missouri                 DANNY DAVIS, Illinois
EDWARD SCHROCK, Virginia             GRACE NAPOLITANO, California
TODD AKIN, Missouri                  ANIBAL ACEVEDO-VILA, Puerto Rico
SHELLEY MOORE CAPITO, West Virginia  ED CASE, Hawaii
BILL SHUSTER, Pennsylvania           MADELEINE BORDALLO, Guam
MARILYN MUSGRAVE, Colorado           DENISE MAJETTE, Georgia
TRENT FRANKS, Arizona                JIM MARSHALL, Georgia
JIM GERLACH, Pennsylvania            MICHAEL MICHAUD, Maine
JEB BRADLEY, New Hampshire           LINDA SANCHEZ, California
BOB BEAUPREZ, Colorado               BRAD MILLER, North Carolina
CHRIS CHOCOLA, Indiana               [VACANCY]
STEVE KING, Iowa                     [VACANCY]
THADDEUS McCOTTER, Michigan

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Policy Director/Deputy Chief of Staff

                  Michael Day, Minority Staff Director

     SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE AND TECHNOLOGY

SAM GRAVES, Missouri, Chairman       [RANKING MEMBER IS VACANT]
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
SUE KELLY, New York                  ED CASE, Hawaii
SHELLEY MOORE CAPITO, West Virginia  MICHAEL MICHAUD, Maine
MARILYN MUSGRAVE, Colorado           BRAD MILLER, North Carolina
PATRICK TOOMEY, Pennsylvania

                   Piper Largent, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Hyslop, Mr. James, President, Standing Stone Consulting..........     3
Ducey, Mr. Ken, Markland Technologies, Homeland Securities 
  Industries Association.........................................     5
Chace, Mr. Richard, Executive Director, Security Industry 
  Association....................................................     7
Orszag, Mr. Peter R., The Brookings Institution..................     9

                                Appendix

Opening statements:
    Graves, Hon. Sam.............................................    27
Prepared statements:
    Hyslop, Mr. James, President, Standing Stone Consulting......    28
    Ducey, Mr. Ken, Markland Technologies, Homeland Securities 
      Industries Association.....................................    32
    Chace, Mr. Richard, Executive Director, Security Industry 
      Association................................................    37
    Orszag, Mr. Peter R., The Brookings Institution..............    42

                                 (iii)
      


 
         TAX INCENTIVES FOR HOMELAND SECURITY RELATED EXPENSES

                              ----------                              


                        WEDNESDAY, JULY 21, 2004

                   House of Representatives
Subcommittee on Rural Enterprises, Agriculture and 
                                         Technology
                                Committee on Small Business
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 2172, Rayburn House Office Building, Hon. Sam Graves, 
presiding.
    Present: Representatives Graves, Shuster and Velazquez. 

    Chairman Graves. Good morning. I would like to welcome 
everybody to the Subcommittee on Rural Enterprise, Agriculture 
and Technology.
    Today's hearing is going to focus on H.R. 3562, The Prevent 
Act, introduced by my colleague, Representative Shuster.
    In today's post-9/11 world, businesses need to take 
precautions against the possibility of a terrorist attack. 
However, it is oftentimes very expensive to secure business 
against the possibility of a terrorist attack. Businesses must 
outlay a great deal of capital to guard against any terrorist 
activity. Moreover, what is the likelihood of a terrorist 
attack against a specific business? It is probably pretty 
small. However, no one can say for sure what the next target is 
going to be.
    Besides the terrible human lost suffered on September 11th, 
our economy suffered terrible losses as well. We must safeguard 
the livelihood of people as well as their safety.
    H.R. 3562 provides an incentive to businesses through tax 
credits. I think it is one of the many ideas that needs to be 
looked at in order to safeguard the population and our economy.
    [Chairman Grave's statement may be found in the appendix.]
    I am now going to turn to Ms. Velazquez, the ranking member 
of the full Committee for her opening remarks.

    Ms. Velazquez. Thank you, Mr. Chairman.
    The events of 9/11 force us to chart a new course for the 
future of our nation. One focus on how to better protect 
America. This plan requires us to spend ever-increasing amounts 
of money to protect and preserve our country. Today's hearing 
will provide us with a forum to explore opportunities in an 
effort to make America's small businesses and the general 
public at large more secure.
    We will examine the different needs of small firms as they 
struggle to pay the high cost associated with securing their 
companies. Security measures in place have increased 
dramatically in the last three years, but still it is a concern 
that more needs to be done.
    Protecting America's infrastructure and its businesses must 
involve a public/private partnership. The federal government 
has an interest in ensuring private firms put homeland security 
measures in place. It provides a benefit to not only the firms 
but to the broader public. The costs of a terrorist attack are 
simply too high. They extend well beyond business owners 
themselves, and affect our entire nation.
    It is for this reason that protecting the homeland should 
not be a government alone effort. Unfortunately, given the 
budget deficits of nearly $450 billion, we simply do not have 
an infinite amount of money to spend on homeland security. It 
means Congress must pinpoint where security is lacking, and 
provide incentives for our nation's businesses to bolster.
    Because of the fiscal situation we are in, it is necessary 
to look at all available options to ensure we encourage 
investment in security where it is needed most. Tax incentives 
are clearly an option, but they cannot be the only one.
    In crafting a solution, it is necessary to explore the 
delicate balance between a firm's decision to invest in 
homeland security and other costs of doing business. 
Encouraging firms to spend on security for the mere sake of 
doing so does nothing to increase homeland security and only 
hurts the bottom line for the U.S. businesses. The government 
must also have a role in determining how homeland security 
money is spent. This would allow us to better identify ways to 
reward businesses that devote resources which not only protect 
their companies but their communities as well.
    As part of this effort, we also can improve the 
coordination between local, state, and federal law enforcement 
officials and the private sector, and whatever solutions are 
put forward today, they must address the needs and concern of 
small businesses.
    After working closely with the small business community for 
many years now, I know these firms simply do not have infinite 
resources to invest in high-tech security equipment and 
security personnel. I truly wish the federal government had 
more money to spend on homeland security, to provide the safest 
environment for our citizens and our nation's 23 million small 
businesses. Unfortunately, we are in a position where difficult 
decisions have to be made.
    It is important that we provide the best policies to 
protect our citizens and our businesses. Not only is it a good 
security policy, but it is sound economic policy.
    Thank you, Mr. Chairman.
    Chairman Graves. Thank you, Ms. Velazquez.
    Representative Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, and I appreciate the 
opportunity to have this hearing, and I want to welcome our 
witnesses here today.
    I believe that homeland security is one of the most 
important issues that we face on a day-to-day basis in our 
country today. The times have changed, and the post-September 
11th world companies are raising a host of new questions about 
security.
    It was events of September 11th that have shown us how 
quickly those who wish to do us harm can affect our lives and 
the economy of this nation. In fact, many companies are taking 
the initiative to secure their workplaces, realizing that no 
longer can we have an open-door policy at our businesses and 
corporation.
    But just as many are trying to do more, many are doing 
nothing at all. More than 75 percent of the scores of U.S. 
firms that hired international security company Kroll to 
promote security upgrades after September 11 attacks, never 
implemented the recommended improvements.
    Recently, I introduced legislation, the Prevent Act, to 
provide incentives for businesses to further their efforts in 
securing workplaces. The legislation amends the tax code to 
provide tax credits to businesses that take the initiative to 
install building security devices, take part in security 
analysis, or create business co-location sites.
    It is not just putting a camera on a wall and believing 
that we have taken a step towards security. It is much more 
than that. It is a need for a security plan, analysis of 
potential weaknesses, and understanding that this process will 
become more involved, not less.
    In an open society it is difficult, but not impossible, to 
shield our workforce and our business infrastructure from harm. 
It is imperative that we provide incentives for businesses to 
take proper security precautions. This legislation provides a 
needed boost towards protecting our workforce and economy.
    I do not believe that additional burden of government 
regulation is the correct way to approach this problem. Our 
business people know the level of threat to their own 
businesses, and it does them no good to set static guidelines 
from government. In fact, the Director of Worldwide Security 
for Texas Instruments has in the past said, ``Let us as a 
business decide best to protect our business.''
    Again, thank you, Mr. Chairman, for holding these hearings 
today. I want to welcome the witnesses again, and I would 
especially like to give a warm welcome to Jim Hyslop from 
Standing Stone Consulting. He is from Huntington, Pennsylvania 
in the 9th Congressional District of Pennsylvania, and 
appreciate your participation here today.

    Chairman Graves. I do want to welcome all the panelists 
here today, and the way we run the format is everybody has five 
minutes to give your statement, and the lights will come on. 
When you have one minute left, the yellow one will come on. But 
it is not--you know, if you go over, it is not that big of a 
deal. But I do want to make sure that all statements of the 
members and the witnesses will be placed in the record in their 
entirety.
    I too, would like to welcome James Hyslop who is the 
President of Standing Stone Consultant today, and we will go 
ahead and start with you if that is alright.

      STATEMENT OF JAMES HYSLOP, STANDING STONE CONSULTING


    Mr. Hyslop. Thank you very much for the opportunity to 
participate in this hearing. As you know, my name is Jim 
Hyslop. I am the CEO of a small security consulting firm based 
in Huntington, Pennsylvania. I deal with both small and large 
companies that are trying to improve the security of their 
workplace and their workforce.
    Small businesses and other small organization managers must 
decide how to allocate their precious resources. Often security 
planning and implementation is like buying insurance, a hedge 
against a probable event. Something bad may happen but then 
again it may not.
    When resources are scarce, managers are forced to opt for 
placing their money where it will provide a good return. Most 
of the time this is okay, but when it is not, it usually means 
catastrophe for the business and frequently puts the general 
public in danger as well. Exploding bombs, biological agents, 
and other treats do not discriminate in their target selection.
    Our experience after hundreds of security assessments is 
that most organizations do not have a security strategy or 
plan. We see the use of security tactics that may or may not be 
appropriate for their intended purpose. There is no underlying 
plan of how these tactics should be used. All too often the 
money spent on these tactics is wasted.
    I believe it is good policy for the government to provide 
financial incentives to small businesses and organizations to 
plan and execute a security strategy. Without such an incentive 
it will not get done, and that puts all of us more at risk.
    The introduction of legislation such as The Prevent Act 
sponsored by Congressman Shuster is an important step forward 
towards the government taking a more active role in this 
effort.
    The assessment process is the basis of security planning. 
It determines where you are now and allows you to set and 
prioritize reasonable goals for where you want to be in the 
future. Assessment identifies the assets, the people, and the 
processes that need protection. It also identifies the probable 
threats that these assets may face and how they are vulnerable 
to those threats.
    The consequence of a carried-out threat is the risk the 
organization faces. Once risk is understood, a plan can be 
developed to mitigate them. Qualified security professionals 
have the knowledge and experience to guide the planning process 
so that it will work in the culture of the business. All 
tactics do not work equally well in all situations. Security 
planners understand how tactics can and should be used to 
effectively mitigate the risks.
    Once there is a plan and the appropriate tactics have been 
determined, the implementation can then be managed by the 
business owners.
    Again, our experience has been that the difference between 
strategy and tactics is rarely understood. Too often there is 
no clearly stated security goals and no way to measure if any 
progress is being made.
    Clarify the difference between strategy and tactics. 
Security strategy is a plan to achieve the desired goals while 
tactics are those actions taken to achieve the goals. Tactics 
are ultimately chosen to modify behaviors by deterring, 
detecting, delaying, and denying the ability to behave 
inappropriately. Strategy is determining what types of 
behaviors you wish to discourage, and often which types you 
wish to encourage.
    During an assessment, vulnerabilities and behaviors are 
identified from which strategies are developed. Only then 
should tactics be selected to produce the desired behaviors.
    For example, closed circuit television, CCTV is a popular 
security tactic, but how does CCTV deter, detect, delay, or 
deny? CCTV is basically an investigative tool. It watches and 
can record activity, but it does not respond to what is seen. 
An asset that is being protected requires an immediate response 
to a threat, and CCTV alone is not an appropriate tactic. It 
must be supported with other tactics and other procedures.
    Equipment manufacturers often offer free assessments but 
you always seem to need the equipment they are selling, be it 
cameras, card-readers, guard services or whatever. Equipment is 
installed without a clear understanding of what it can and 
cannot do, and it often provides a false sense of safety and 
security. This can cause people to let their guard down by 
relying on technology to do things it really cannot do. The 
result is that you may actually be more at risk.
    No security plan is 100 percent effective, but being 90 or 
95 percent effective is a great improvement over where we are 
now. The point is without an assessment and a strategy we 
frequently waste money on tactics that do not deliver the 
expected results.
    Thank you again for listening to my statement.
    [Mr. Hyslop's statement may be found in the appendix.]

    Mr. Shuster. [Presiding] Thank you, Mr. Hyslop, and now we 
will hear from Ken Ducey who is the President of Markland 
Technologies, and he is representing the Homeland Securities 
Industries Association.
    Good morning, Mr. Ducey. Please proceed.

    STATEMENT OF KEN DUCEY, MARKLAND TECHNOLOGIES, HOMELAND 
                SECURITIES INDUSTRY ASSOCIATION


    Mr. Ducey. Thank you. Representative Shuster, 
Representative Velazquez, it is a pleasure to appear before you 
today. Accompanying me today is Bruce Aitken, President of 
Homeland Securities Industry Association, the HSIA.
    The HSIA was organized in November 2001, and formally 
launched over a year ago. We have over 400 members, ranging 
from multi-billion dollar defense contractors to mid-sized 
firms and incubator firms.
    In my oral presentation today, I will summarize the views 
and recommendations of HSIA. The association's views represent 
the consensus of HSIA members, but not the particular views of 
any one member.
    In general, HSIA strongly supports legislation such as H.R. 
3562, to provide tax incentives to promote private sector 
homeland security initiatives.
    Since 9/11, America has begun a fundamental transformation 
from an open society to one that must continually weigh the 
security of its citizens and corporate assets from terrorist 
attack. In the immediate aftermath of 9/11, the administration 
and Congress acted with vigor.
    Unfortunately, partisan politics in the Legislative Branch 
held up rapid increases in HLS funding, and that Congress did 
not release Fiscal Year 2003 funding until nearly halfway 
through the 2003 fiscal year. This meant that the substantial 
increases in HLS funding that had been anticipated in the fall 
of 2002 for the first responders and others did not begin to be 
released until 17 months ago.
    Since then the administration has moved quickly but first 
responders and others involved in HLS still have many needs for 
which funding has just begun. As a consequence, it is 
understandable that frustrations have been felt among first 
responders throughout the country, and among the companies who 
hope to serve them, including the HSIA members.
    America is an open society. That is the strength of our 
democracy and the source of all our vulnerability. Two years 
ago on the first anniversary of 9/11 the Washington Post 
analyzed America's vulnerability to terrorist attack and gave 
an overall grade of C minus for HLS. Of course, this is 
unacceptable.
    America faces a challenge which is likely to take years to 
accomplish. Therefore, we repeat a call we made in 
congressional staff briefings in January and February 2003 for 
an end to partisanship in HLS.
    Our concerns about the HLS fall into three categories: One, 
federal procurement; two, state and local procurement; and 
three, private sector initiatives.
    With respect to federal HLS procurement by DHS and other 
federal agencies with related procurements, we believe that the 
administration has done a commendable job in successfully 
launching the new department in a very short time, as well as 
in meeting its deadline to federalize airport passenger and 
baggage screening. In addition, we commend the department for 
its so-called ``Industry Days.''
    DHS has gone to great and commendable lengths to outreach 
to the federal contracting community to share with firms DHS's 
vision, acquisition plans, and updates about its programs.
    However, we have communicated with Congress in other 
hearing constructive suggestions to help improve this system in 
the future. We believe that the incidents of sole-source 
contracts and sole-source delivery orders off the GSA schedules 
should decrease.
    Today we address the need for tax incentives for homeland 
security-related expenses. In the April 6, 2003, Sunday New 
York Times an article appeared with predicted that by 2008 
annual HLS spending would increase from the 2003 annual level 
of about 60 million to 200 billion annually, and the article 
predicted that two-thirds of this spending would be in the 
private sector.
    Yet the best estimates that we have seen suggest that since 
9/11 private sector spending for HLS has increased only four 
percent.
    The HSIA worked with a group organized by the American 
National Standards Institute, ANSI, from January 2004 to May 
2004. The purpose of this group was to develop a recommendation 
for the 9/11 Commission, to help promote development of 
voluntary private sector HLS standards. We accomplished this 
and made a recommendation that NFPA Code 1600 serve as a model 
or framework for HLS private sector standards.
    This led to a discussion about how to educe the private 
sector to invest in HLS measures and equipment. This is a 
crucial issue since the vast majority of U.S. critical 
infrastructure is privately owned.
    The consensus of our group, which included over 40 
organizations, was that the 9/11 Commission should recommend to 
Congress tax incentives not only for private companies 
investing in HLS initiative, but also for municipalities.
    In conclusion, we strongly support the Subcommittee's 
efforts on this important subject. We would be happy to answer 
any questions. Thank you.
    [Mr. Ducey's statement may be found in the appendix.]

    Mr. Shuster. Thank you, Mr. Ducey.
    Now we will hear from Richard Case, the Executive Director 
of the Security Industry Association. Mr. Chace.

   STATEMENT OF RICHARD CHACE, SECURITY INDUSTRY ASSOCIATION


    Mr. Chace. Good morning, Chairman Graves, Ranking Member 
Velazquez, Congressman Shuster, and other members of the 
Subcommittee.
    Thank you for giving me the opportunity to participate in 
this important hearing on tax incentives for homeland security-
related expenses, and in particular, H.R. 3562, The Prevent Act 
that was introduced by Congressman Bill Shuster.
    My name is Richard Chace, and I am the Executive Director 
and CEO of the Security Industry Association, and it is my 
honor to testify today on behalf of the Security Industry 
Association, SIA, which represents over 700 electronic security 
equipment manufacturers, distributors, and service provider 
organizations around the country and throughout the world.
    For more than 30 years the Security Industry Association, a 
nonprofit international trade association, has represented 
electronic and physical security product manufacturers, 
specifiers, and service providers. As an association our 
primary mission is to promote growth, expansion, and 
professionalism within the security industry by providing 
education, research, technical standards, and representation in 
defense of its members' interests.
    The member companies of our association employ roughly 
150,000 plus individuals. While this is a sizeable constituency 
and a fraction of the industry as a whole, the majority of our 
members employ roughly 500 employees or less.
    This, according to the U.S. Small Business Administration, 
is the definition of a small business, and it is indicative of 
the significant number of security industry companies' 
employees that are affected by small business laws and 
regulations.
    It is because of our industry's vulnerability to the 
effects of small business laws and regulations that the 
Security Industry Association is in strong support of H.R. 
3562, the Prevent Act, as introduced by Congressman Shuster.
    We applaud Congressman Shuster's leadership in introducing 
this critical piece of legislation. We would also recognize 
Congressmen Weller and Crowley for their collective work and 
focus in this area in past sessions.
    Given the increased focus on the private sector's role in 
homeland security, and the many economic benefits that can 
arise from appropriate security applications, it is vital that 
private sector businesses are given the tools needed to 
properly secure employees, customer, and important assets.
    Passage of Congressman Shuster's legislation, H.R. 3562, 
would be a major step in promoting the private sector's in 
meeting the post-September 11th challenge of adequately 
securing the homeland. This important bill provides appropriate 
tax incentives for businesses to enhance their security while 
simultaneously promoting safety for employees, customers, and 
enhancing productivity.
    In today's uncertain world, the private sector and the 
government need to work together to provide a more secure 
environment for places such as malls, movie theaters, stadiums, 
hotels, apartment complexes, and other areas. H.R. 3562 would 
provide the necessary incentive for businesses that wish to 
apply state-of-the-art security technology to protect our local 
restaurants, businesses, movie theaters, and other soft 
targets.
    Last year Congress passed, and President Bush signed into 
law, the Jobs Growth Tax Reconciliation Relief Act of 2003, 
H.R. 2, which allowed for an increased amount, up to $100,000 
for tax expenses as well as an increase in the bonus 
depreciation from 30 percent to 50 percent. This increase 
allows especially small businesses the opportunity to upgrade 
or purchase security systems if they so desire.
    This, in turn, helps to sell these products and helps more 
than half of our membership. These tax breaks are a win/win 
situation for the customer and the manufacturer, while working 
to infuse more capital back into the economy.
    This legislation runs out as of January 1, 2005, and the 
ability to incentivize small businesses and their assets will 
be lost. These provisions act as a cost-effective tools that 
will help America's businesses play an increased role and 
enforce multiplier in homeland security.
    As continuing concerns of security issues place economic 
strains on consumers' businesses, a reliable security 
infrastructure has become essential in keeping businesses 
vibrant.
    In a GAO report released on Friday entitled ``Status of Key 
Recommendation,'' GAO has made to DHS and its legacy agencies. 
It calls for actions to be taken by the Department of Homeland 
Security.
    In the national strategy for homeland security released by 
the administration in July of 2002, one of the recommendations 
was to determine the need for security regulations, grants, or 
incentives for securing critical infrastructure. This has not 
been done, and H.R. 3562 would play a critical role in 
successfully reaching this goal.
    To help support the Department of Homeland Security's 
regulation and recommendation development, standards 
development should not be overlooked. In recent years, Congress 
has passed several laws making it clear that federal agencies 
rely upon private and voluntary standards whenever feasible; 
namely, that all federal agencies and departments shall use 
technical standards that are developed or adopted by voluntary 
consensus standard bodies.
    Using such technical standards is a means to carry out 
policy objectives or activities defined by the agencies or 
departments.
    The SIA supports the standards development effort, which is 
beneficial to small businesses and the small business end user. 
In the case of procurement and internal operations, end user is 
the role the government takes. As users the government has the 
opportunity through standards to resolve technical problems, to 
make security products work together and share lack of 
confusion in the marketplace, and share the interoperability of 
products and specify the responsible use of security 
technologies.
    Security systems and security technology applications, when 
utilized in the context of clearly defined policies, provide a 
wide range of benefits, especially to the corporate bottom 
line. Sophisticated and well-planned security applications in a 
corporate setting provide a significant return on investment. 
They play a role in the activity of business and should not be 
seen as an expense or drain.
    In conclusion, I would like to once again this Subcommittee 
for holding this hearing. It is my hope that this initial 
conversation will spark greater interest in 3562, and serve as 
a springboard for Congress to enact this legislation.
    As the executive director of SIA, I would like to offer my 
association and its members as a resource for this Committee 
and the Congress as you grapple with these difficult homeland 
security-related issues.
    Chairman Graves, Congressman Shuster, thank you for your 
attention to this matter, and I will be happy to answer any 
questions that you or your colleagues on this Subcommittee may 
have of me. Thank you.
    [Mr. Chace's statement may be found in the appendix.]

    Mr. Shuster. Thank you, Mr. Chace.
    We will now hear from Peter Orszag, did I pronounce that 
right?

    Mr. Orszag. You did.

    Mr. Shuster. Okay. He is from the Brookings Institute. Go 
ahead and proceed, Mr. Orszag.

    STATEMENT OF PETER R. ORSZAG, THE BROOKINGS INSTITUTION


    Mr. Orszag. Thank you very much for having me here this 
morning, and I am particularly encouraged that your legislation 
and my co-panelists have recognized the need to alter the 
incentives facing private firms in the area of homeland 
security because, in my view, this is one of the greatest 
short-fallings in our homeland security efforts to date, which 
is that we have not tackled the problem of how to alter the 
incentives facing private firms. Just leaving it up to the 
market itself without any change in the incentives is not going 
to work.
    So the key question is how we should change those 
incentives, and certainly tax credits are one way of doing so. 
But we do need to realize the shortcomings or problems in tax 
credits. Any approach to altering the incentives will have 
problems, so this is not necessary definitive to say that tax 
credits have some problems, but let me just walk through some 
of them, and in my view actually, they are substantial enough 
to prefer an alternative approach.
    The first problem with the tax credit is that it can educe 
gold-plating; that is, especially when there are products that 
are useful for homeland security purposes but for other 
purposes one can educe excessive spending on those products.
    For example, your legislation includes things like door 
locks. Door locks have some homeland security benefits, but 
they also protect against vandalism, against theft, and other 
more private sector-oriented types of activities. By decreasing 
the cost of certain types of products one can educe excessive 
spending on those kinds of products because the firm is not 
facing the full cost.
    Another related problem is that a tax credit tends to buy 
out the base of activities that firms were doing anyway, so for 
firms that were already spending X hundred dollars on homeland 
security activities, we now have a cost to the federal 
government in response to no change in their activities. In 
other words, it is not a marginal incentive, it is not for 
something that is just new activity. It would buy out the base 
of any activity that would have occurred anyway.
    The third problem is that tax credits do not do a 
particularly good job of sorting risks in the sense of across 
sectors. I worry a lot more about the security of our chemical 
facilities than I do about remote shopping malls at various 
parties of the United States simply because the opportunity for 
terrorist harm varies substantially, yet the tax credit 
approach provides the same benefit to putting in a door 
security system at a shopping center in the middle of a remote 
area as it does in a more high profile chemical facility.
    Fourth, and I think this is a very substantial problem, our 
tax code is extremely complicated. Complexity has increased 
markedly over the past several decades, and implementing an 
approach like this can prove to be very difficult. For example, 
the legislation says that computers used to combat cyber 
terrorism will be eligible for the tax credit.
    I have no idea how the IRS will judge whether a computer is 
used to combat cyber terrorism or for any other purposes, and 
once we start getting into that kind of ambiguity, that is 
where we get complexity.
    The fifth point is the fiscal outlook. The nation faces a 
long-term fiscal gap of between seven and 10 percent of GDP. It 
is a massive long-term fiscal problem. Tax credits will, unless 
they are offset through other revenue or spending changes, 
exacerbate that fiscal gap.
    For example, the bonus depreciation in Section 179 
provisions that were already mentioned this morning, if 
extended over the next 10 years would cost about $475 billion 
on top of an already fairly dismal fiscal picture. I do not 
know exactly what the score is for this legislation, but it 
certainly could be nontrivial.
    And then I think finally, and most fundamentally, there is 
sort of a philosophical question, which is who should bear the 
cost. Tax credits spread the cost of homeland security 
investments across the tax-paying population as a whole. Some 
people may view that as fair. This is a public good that we are 
providing, protecting against terrorist attacks. Other people 
may view it as unfair. The rest of the population is 
effectively subsidizing those firms or occupants or people who 
are engaged in the riskiest activities from the point of view 
of exposure to a terrorist attack.
    Beside the fairness argument, I do not want to fully weight 
into those, there is an incentive point. By spreading the cost 
over the whole population rather than concentrating the cost on 
the stakeholders involved you are losing the incentive effect 
of minimizing or at least reducing the most dangerous 
activities.
    If instead the stakeholders pay, they bear the cost, and 
normal market forces would then tend to diminish the most 
dangerous activities, and from a society's point of view that 
is actually exactly the right outcome.
    I see that I am running out of time so I will not go into 
full detail on some of the alternatives, but I do think that 
there are market-based, market-friendly dynamic systems that 
could be put in place that are not tax credit-based, that do 
not worsen the fiscal outlook, and that do not spread the costs 
over the whole population as opposed to the stakeholders, and I 
would be happy to answer questions about them.
    But let me just reenforce the basic point, which is I think 
it is absolutely essential to be looking at ways of changing 
the incentives facing private firms. We have not tackled this 
problem. It is very difficult to do. Perhaps you and I have 
somewhat different views on this specific proposal, but the 
basic idea of trying to tackle this problem is one that I think 
is crucially important, and I commend you for taking a step in 
that direction. Thank you very much.
    [Mr. Orszag's statement may be found in the appendix.]

    Mr. Shuster. Thank you, Mr. Orszag, for your testimony, and 
there is only two of us here so what I thought we would do is 
go back and forth five minutes, five minutes, and I have a 
couple of questions I will start off with, and then yield to 
the ranking member.
    Mr. Hyslop, you had mentioned the need for security devices 
but also a security plan. Can you tell me a little bit more 
about what it looks like to go in, and what the plan entails 
when you go and do this analysis?

    Mr. Hyslop. Security planning is--I will give you the very 
short, simple version. It is assets plus threats plus 
vulnerabilities equal risks.
    Remember in my statement I said the risks are the 
consequences of the threat being carried out.
    So, for example, let us say we have a business and it has a 
vital database that is critical to the ongoing function of the 
business. That computer then that houses that database needs 
protection. So we look at--that is the asset, the computer and 
the data that it contains.
    All right, how do we protect that? What are the threats 
against it?
    Well, the threats could be it could be hacked or it could 
be physically damaged. So we look at those threats against that 
asset. How is this particular asset vulnerable to those 
particular threats in this particular business. That is what I 
meant when I said within the culture of the business.
    Let us say, for example, that this business is open to the 
public. People have to come and go, so you cannot keep people 
out of the business to protect this computer. What do you need 
to do? Perhaps in that case what we need to do is have a 
redundancy, a computer offsite somewhere so that the data and 
that computer can be protected so that if something does 
physically happen or that computer that is in the business is 
hacked, you have this other one as a backup. You can put it in 
place and the business can continue.
    We have had--I do not want to go into a lot of detail the 
threats that businesses are facing, but there are privately-
held water companies, for example, that are controlled by 
systems called SCADA systems. Those are all computer-
controlled.
    How do you protect that computer and that database? It is 
critical to how that water system functions and how we would 
all be protected if something threatened that water system. So 
that is the kind of thing--in that case, you know, they do not 
have a lot of public access. You could protect it in different 
ways. That is what I mean by you have to work within the 
culture.

    Mr. Shuster. As Mr. Orszag mentioned about cyber--a 
computer that protects against cyber invasion, can you tell the 
difference or is there different devices, different software 
that protect against, or is it no clear-cut? I am not familiar.

    Mr. Hyslop. Well, certainly if you had a redundancy, if it 
was my business and I was setting up a computer to have 
redundant information available if somebody hacked into my 
primary system, I do not think there is any question of why you 
bought that computer.

    Mr. Shuster. Right.

    Mr. Hyslop. And we do work with firms that ask that 
question. What happens to my information while it is in your 
system? I need to tell them that, well, this is how I protect 
it, and this is what would happen if we were under attack.

    Mr. Shuster. Right.

    Mr. Hyslop. So I think there may be some cases where it is 
not very clear, but I think in most cases it is going to be--

    Mr. Shuster. Stores obviously--

    Mr. Orszag. Yes, if I could just comment on that. I mean, 
let us take auxiliary systems for example. Auxiliary systems 
can provide benefits against cyber attack, but they also 
provide a variety of just normal business interruption, you 
know, for a reason entirely unrelated to cyber attack, the 
local grid goes down or there is some other problem. Having 
auxiliary systems in place provide a continuity to business 
operations that have nothing to do with terrorist attacks.
    So I actually think that provides a good example of dual 
use types of activities that it is very difficult to sort of 
draw a line and say this is just for homeland security.

    Mr. Shuster. Right. A question for maybe all of you in your 
experience, maybe just go down the line there. Why are not 
companies investing in homeland security? Is it because of the 
cost mainly or is it because of belief that they are not at 
risk? Just going to go down, what is your experiences? Could 
you briefly touch on that?

    Mr. Hyslop. My experience is it is basically cost. There 
are other factors, but as I said in my opening statement, most 
particularly small businesses have to look at the return on the 
investment, and it is like buying insurance. Most of them do 
not believe that something bad is going to happen, and most of 
the time they are right. But in that one or two occasions where 
they are wrong it is catastrophic.

    Mr. Shuster. Right.

    Mr. Hyslop. And it is not only catastrophic to the 
business, it can be catastrophic to the general public at 
large. If one of those chemical plants is attacked--

    Mr. Shuster. Right.

    Mr. Hyslop. --it is not just going to be the people that 
work there, it is going to be the people in the surrounding 
community. And I am from a rural community. I take a little 
offense at someone saying a rural mall is not all that 
important. To me it is just as important as that chemical 
factory in Bayonne.

    Mr. Shuster. Right. And that chemical factory in Bayonne is 
going to affect people all across the country because of the 
supply and what have you.

    Mr. Hyslop. Right.

    Mr. Shuster. Mr. Ducey, do you care to--

    Mr. Ducey. Yes, I think it is a combination of both. I do 
not think that either--even if it was free right now, I do not 
think there is a lot of incentive for companies to implement 
different homeland security plans just because, as you said in 
your opening statement, everybody thinks, well, what are the 
chances of it actually happening to me.
    I think it has got to be not just incentives but also sort 
of like a media campaign that basically suggests that, you 
know, workers coming to work every day are at risk unless you 
take a certain initiative on behalf of your employees, and then 
from that obviously employees may will go work for a company 
that has taken initiatives because they know they are going to 
be safer going forward.

    Mr. Shuster. Right. Mr. Chace?

    Mr. Hyslop. Can I just back in with just one comment?

    Mr. Shuster. Sure.

    Mr. Hyslop. One of the things I have seen when we talk 
about planning, you sit with a business owner and you say you 
need to think about the consequence of this risk in terms of 
dollars and human casualties. When you do that you are really 
taking people out of their comfort zone.
    I think one of the reason they do not like to think about 
this is because when they are forced to think in those terms it 
becomes a much more serious situation.

    Mr. Shuster. Right. Mr. Chace.

    Mr. Chace. Yes, I would like to comment on one thing that 
my colleague over here mentioned.
    There are fringe benefits to these systems. Of course there 
are. And it would be a waste of the resources to have it only 
apply to homeland security. That would be irresponsible. If you 
are going to make that investment, you darn well better have 
some ancillary benefits to it. I just want to make sure that is 
understood as well.
    But let me talk in terms--we need to take a crawl, walk, 
and run approach here. Security is very subjective. What is 
security to you might be a dog and a fence. What is security to 
me might be high access control system and a perimeter guard.
    So it is a very difficult thing to legislate. It is also 
extremely difficult to get our hands around it to define. So 
that being said imagine how much more difficult it is for the 
small business or the private sector to say, well, what is my 
real risk here? You have to take in geographic locations. You 
have to see is it just my assets that I need to worry about 
securing? Or do I need to worry about that I am located five 
miles away from a nuclear power plant even though I am just a 
small business?
    Those are all things that go into determining what type of 
security system you need. So what I advocate and what our 
associate advocates is the fact that you need to have clearly 
defined policy that says this is how you use and begin to look 
at security. It is a tool in your toolbox. It is one piece of a 
total solution for security. It is not the solution.
    I think the biggest misnomer as we move forward thinking 
that technology is going to solve the problem. It is not going 
to because a nice, big CCTV system is totally useless if there 
is not a good policy defining how those people are going to be 
using it, what it is going to be used for, who is going to be 
trained, and how they are going to be trained on how to use it. 
It is the maintenance, the economic impact you are going to 
have.
    It is extremely complicated, and incentives do go a long 
way into helping people make that first step, because if 
already the cost is so completely out of whack with what they 
are looking at, but there is a need and they perceive a need 
because they would like to secure their assets, they cannot 
even make that first step. So it is very critical to have that 
piece of the pie.

    Mr. Shuster. Mr. Orszag, do you want to comment?

    Mr. Orszag. Sure. In terms of the causes of firms not 
investing adequately in homeland security, I think the main 
ones have already been mentioned; in particular, that the 
probability of an attack on any specific installation or 
facility is very small, and perceived to be small.
    And secondly, even if it were correctly perceived, that 
there is what economists call a negative externality. Not all 
of the costs that are imposed from that attack are imposed on 
the firm itself, so there is no incentive to--you know, in a 
market-based system to protect against the spillover effects 
that would affect external parties.
    I do want to, because I think it is so important, I do want 
to just emphasize. My comments on the rural malls was not to 
denigrate them in any way, but rather that we have limited 
resources. We cannot protect every single facility in the 
United States against attack.
    We have to prioritize. There has to be some system of 
prioritization either from private firms doing it themselves or 
from the federal government or from some other source because 
the way to kill the economy, the way to educe unbearable 
economic cost for very little improvement in security is to try 
to protect everything. So we need some sorting of catastrophic 
risks versus non-catastrophic risk, and I will be blunt.
    Yes, a chemical facility is more important to protect than 
a shopping mall that 100 people a day visit.

    Mr. Shuster. And I think that is what is happening today is 
the rural malls are not investing great dollar amounts, and our 
chemical plants are doing those types of things.
    So I will yield to the ranking member, Ms. Velazquez.

    Ms. Velazquez. Thank you, Mr. Chairman. Mr. Orszag, it 
seems that the panel agreed that we need to invest more, but 
how do we get there? And we are discussing one option through 
tax credits. Would you please comment on other options beside 
tax credits?

    Mr. Orszag. Sure. For whatever it is worth, I think the 
most promising approach in many settings, I talk about this 
some in my written statement, is a hybrid system in which you 
use market forces from insurance firms and third-party auditors 
backed up by very flexible market-based regulatory standards 
where necessary, but mostly on the third-party auditor and 
insurance firms playing off of the collective wisdom that firms 
are good at doing these, including some of the firms 
represented here in providing security assessments and security 
plans with some incentive through, basically through insurance 
premiums.
    What I would advocate--this is sort of a mix system which 
might be similar to what happens with a house or when you drive 
your car. With a house, there are a minimum building standards, 
building code, local building code that applies, but then in 
general when you go to get a mortgage the mortgage firm 
requires that you also have insurance. And if you put in a 
security system, you can get a break on your insurance premium. 
That provides some incentive to go beyond the minimum building 
code.
    If one had a system of more widespread anti-terrorism 
insurance, that could be a dynamic market-based system of 
providing incentives without rigid bureaucracy, because the 
firms would be able to keep pace, and frankly, I think it would 
do a better job of keeping pace with threats and best practices 
than having a completely decentralized system where each 
individual firm sort of has to figure things out for 
themselves. The insurance firms working with third-party 
auditors could do a lot of the heavy lifting for us.
    This has shown to be effective and workable in the area of 
safety as opposed to security at chemical facilities. Delaware 
and Pennsylvania, for example, have implemented a system like 
this on a pilot project, and it has proven to be quite 
effective.

    Ms. Velazquez. Any--Mr. Chace.

    Mr. Chace. I would like to comment a little bit. Homeland 
security or terrorism insurance, as it is being called, is also 
very expensive. And so we are not just talking about 
incentives.
    And I agree with the hybrid approach because I think there 
has to be a myriad of options. There has to be a menu that is 
available because one size does not fit all as we talk about 
security subjective.
    But I think you have to be very careful about promoting 
overuse of insurance because that just becomes just as costly 
as it would to ensure a facility. So you have to balance that 
out.
    One of the things I would recommend though as we talk about 
a hybrid approach here is that there are some very good 
instances of public/private partnerships working to define 
these situations and these problems at the local level, and I 
think that, as Tom Ridge has said before, homeland security 
really starts at the local level and how people are going to be 
taking care of their individual property, how they think about 
it.
    One of the things we want to be very careful about, we do 
not want to scare the heck out of everybody.

    Ms. Velazquez. But, Mr. Chace, how do we get there also? 
How can we get people and what role the federal government can 
play to raise awareness that homeland security starts at the 
local level?

    Mr. Chace. That is an excellent question, Congresswoman. 
One of the things that we have been involved with the police 
associations is promoting this very thing of private/public 
partnerships. Back in January, there was a summit hosted by 
COPS and IACP that talks about building public/private 
partnerships, and this was high on the agenda. How do we 
energize at the local level individuals to take a more 
responsive role? And that is being vetted right now, the 
response to that, in Justice right now of that summit.
    But the long and short is there has to be awareness 
campaigns and dollars invested with the local AHJs to help them 
reach out to the private sector in those communities. Downtown 
partnerships work very well.
    There are examples in Boston, here in D.C., in L.A., in 
Houston. They are very successful because they begin to 
maximize the resources of the private sector and play upon the 
long-term objectives and goals of the public sector, which have 
a better understanding of it. Become force multipliers and you 
can expedentially grow the resources of any given facility, 
helping the private sector to define what they should be 
investing in as well as helping the public sector in 
understanding what technologies are potentially available.

    Mr. Ducey. Yes, just adding to that, I think that is 
excellent, but the other thing, just going back to the rural 
shopping mall. I will bet you that there is a fire alarm system 
in that mall. I will bet you that there is a security guard in 
that mall. I will bet you there is theft prevention in that 
mall. These things, you cannot just look at the major 
infrastructures.
    And just to get back to your question, I think the biggest 
problem is education. Just like nobody would go into that mall 
unless they were sure that there was some sort of fire system 
in there, we have to educate the public and educate people that 
they are going to know that, hey, I am not going to go work in 
that high rise unless it is compliant with whatever it might 
be.
    And whether it is mandatory or not, I do not believe it, it 
should be mandatory, but at the end of the day if you go 
through what a company would go through to say I want to secure 
my building and I want to make it better, obviously you have to 
help them out with in terms of cost, but you also have to help 
them out in just terms of, well, what do I do to make this 
better, and why should I make this better, and can you help me 
by telling me what is my biggest threat, and that type of--by 
supplying that type of resource to them, I think it would help 
incentivize them, and then you could potentially protect every 
single facility in America because it--like you were just 
saying--it cannot just be all the public and it cannot be just 
all the private either. It has to be the both in combination.

    Ms. Velazquez. Thank you.
    Mr. Hyslop, as a firm who provides security consulting, I 
am sure that some of your clients are small businesses. I sense 
that many small businesses do not have the security measures in 
place that large corporations may have for different reasons, 
and one is cost.
    Do you find that this is the case because small firms see 
less of a benefit from the investment, or that they simply do 
not have the resources to pay for the security equipment and 
plans?

    Mr. Hyslop. My estimation is they do not have the resources 
to do the work. Thinking back over the last couple of years we 
have talked to hundreds of organizations about security 
planning. Very few have actually gone forward with a plan and 
implementation. So it is--and when you press for the reason it 
is just we cannot afford to put that kind of money into this 
stuff because we do not see any return on that investment.
    You know, small businesses are fighting the cash flow 
battle all the time. I mean, you talk about insurance. My 
professional liability insurance has gone up 100-fold since 9/
11. I have to have that insurance. You know, I do a lot of work 
in the federal sector. It is a mandate, so I have to buy that. 
I do not have to buy this other stuff.
    So if I have a little pot of money and I have to make a 
decision of what to do with it, that is how that decision gets 
made. If there is no incentive to do this, and as a manager you 
look at it and you say, well, the risk is actually pretty 
small, so I will take the risk.
    Unfortunately, it is not just their risk as we have all 
said. If something bad happens, it is not just that business. 
So what you have basically is a business manager making a 
business decision that affects everybody.

    Ms. Velazquez. Mr. Orszag?

    Mr. Orszag. Yes. Could I just comment quickly? If the 
concern is one of firms that have sort of credit constraint 
cost problems, one, my understanding, and please forgive me if 
I misread the legislation, but the legislation is not limited 
to small businesses. This is a general business credit.
    One approach one could take if you were particularly 
worried about the costs associated with small businesses is to 
adopt more--and coming back to the bonus depreciation versus 
Section 179--adopt more of the Section 179 kind of approach 
which is effectively limited to small businesses because it is 
taken back as the scale of your activities goes up, which 
would, if this is the concern, focus the activity or the 
federal tax break more on the area of concern rather than a 
much more expensive approach that is universal.

    Ms. Velazquez. Thank you, Mr. Chairman.

    Mr. Shuster. Thank you.
    A question that I have for Mr. Ducey and Mr. Hyslop since 
you are out there dealing with small companies, I imagine, 
large, medium, large and small companies.
    What type of firms are you dealing with? Because I am 
viewing this as a restaurant in Altoona, Pennsylvania probably 
does not need or have any security. I am sure they do not. But 
a New York restaurant 21 Club or somewhere with a lot of people 
come, a lot of maybe high profile targets come, they may need 
security and have different types of security.
    What type of firms are you dealing with, the two of you? 
Mr. Ducey, you are in the equipment business basically?

    Mr. Ducey. Right.

    Mr. Shuster. And Mr. Hyslop, you are dealing with the 
assessments, so if you could maybe--

    Mr. Ducey. From a company marketing technology, we deal 
with a lot of companies that have either work in high-rise 
buildings or in major areas.
    What we deal with namely when it comes to the type of 
company, small businesses, and where the biggest problem is 
that they do not know basically what the problems are. They do 
not know how to address the situation. They do not know how 
to--what sort of problems they should be putting into place.
    One of the issues is if they could be educated more, 
whether it be through the State Department or whether it be 
through the Small Business Administration, that is really what 
they are looking for more than anything.

    Mr. Shuster. Mr. Hyslop?

    Mr. Hyslop. We deal with a wide variety of businesses. I 
can off the top of my head think of--we had a recent client 
that was a cryobank, freezing center, I will not go into a lot 
of details, but they had some unique security requirements 
because their customers are very sensitive about being 
photographed. So cameras were out. That is what I mean when you 
deal with culture.
    So we deal with those kind of places that are sort of high-
level scientific research, those kinds of things, and they are 
often targets of--generally when we talk about terrorists here 
we are all thinking Al Qaeda and that type of stuff, but we 
have lots of home-grown terrorists, there are eco terrorists, 
and there are, you know, extreme anti-abortionists people.

    Mr. Shuster. Sure.

    Mr. Hyslop. And they are all threats, so we deal with that. 
Like I said before, we have dealt with water companies. All of 
these people are at risk. It just depends on--

    Mr. Shuster. Right.

    Mr. Hyslop. --how you evaluate that risk.
    Did that answer your question?

    Mr. Shuster. Have either of you dealt with--rural malls 
came up which, again, I think is a very low-level risk out 
there at this point, but malls outside of--in New Jersey, for 
instance, have you dealt with malls and gone in to assess 
their--

    Mr. Ducey. Sure. I mean, we have dealt with owners of malls 
and other buildings and things. And when you say deal with 
them, what we do is--obviously we are trying to sell a product. 
Our product, for example, can detect--one of our products can 
detect illicit vapors. And we will approach a mall and say do 
you know what would happen if somebody walked in here with a 
can of mustard gas or something like that, and let it off.
    Basically what it comes down to is they obviously care but 
at the end of the day it is either, (a) it is not going to 
happen here or what are the chances it is going to happen here, 
I have got a lot of other pressing issues; and (b) I am not 
even sure what to do about it. Is your product the best? Is 
there another product out there I should be looking at? Is this 
the biggest threat that I have to my mall?
    Maybe I should be worried about something else, and that is 
basically the problems that we have had coming in, and that is 
where, frankly, I think the government could help us out, 
again, like through educating them, letting them know these 
solutions are available, this is the biggest threat to your 
mall, letting the public know that, you know, when you walk 
into that mall they are not taking the adequate standards 
necessary to really protect you much like I was saying earlier 
with fire or theft or something like that.

    Mr. Shuster. That is a great concern of mine. As we harden 
or secure some of these high-profile targets, they are 
eventually going to turn into the malls and the grocery stores 
where they can kill 50, 60, 100 people, and that is, I think, 
something we are not paying attention to.
    And the market, we keep talking about the market driving 
it. The force in the market that is going to drive this is 
going to be another terrorist attack.

    Mr. Ducey. Right. It will be worse than that if you think 
about it. Excuse me. But the perception is that I am safe as 
long as I am out of D.C., I am safe as long as I am not in New 
York, I am not next to a nuclear plant, I am not next to a 
chemical plant. Heaven forbid they do attack that rural mall 
with 100 people in it. That is obviously, as we think about, 
you know, maybe not a big target, that is going to threaten 
every single person in America and make them all feel 
uncomfortable, and that is obviously a huge concern.

    Mr. Shuster. Right.

    Mr. Chace. One of the things I wanted to add, Congressman, 
to that is we have to take into consideration, I will give you 
an example.
    Remember after 9/11 hit, if you had any access to the 
internet within the months after that, you were probably 
bombarded by gas masks and radiation pills, and buy this. It 
was crazy, and people responded basically to fear and lack of 
education and knowledge, and that is the worst place you can 
be.
    We are in a position right now to plan and make some good 
plans for the future. That small restaurant in Altoona might 
not have a need for security equipment, but I bet you they have 
a need for understanding what they should do if the mall down 
the street does become a soft target hit and we do find the 
terrorists are not just leaning to the hard, high visibility 
targets, they want to strike at heartland targets, and they 
want to scare us.
    What better place to do that then the local mall where you 
have basically people who are average Joes walking through with 
their wives, their kids. I mean, it is a target. I do not care 
what you want to call it.
    But the point here is we can begin to at the federal level, 
whether it is through incentives and tax credit, this is just, 
again I will say it, it is just like security, it is one 
component to a total solution. This is just one aspect of the 
discussion that needs to go on. There need to be, as we talked 
about earlier, a campaign to fundamentally understand and let 
people understanding what security requirements are, and they 
are not just technology issues. They are policy and education 
issues that you need to train people how to think about these 
things ahead of time so when the actual instance happens you 
are not playing catch-up.

    Mr. Ducey. Let me just say one thing. Think about the 
economic impact too to every other mall in America and every 
other small business.

    Mr. Shuster. That is right, and back to an ounce of 
prevention or the pound of cure.

    Mr. Ducey. That is correct.

    Mr. Shuster. Do you have another question?

    Ms. Velazquez. Yes, thank you, Mr. Chairman.
    Mr. Chace, your organization has numerous members that are 
small businesses, and obviously much of the spending on 
homeland security comes from the federal government, and some 
firms that may be clients of yours, of your members has 
security in place because of government requirements.
    Do you find that federal agencies involved in issuing 
contracts as well as rules and regulations regarding security 
measures account for the needs of the small security firms?

    Mr. Chace. That is a good question, and I do not pretend to 
have that answer completely because that would require a great 
deal of survey work, and I do not want to mislead you.
    I think that as a general rule security as we talk about 
here is generally misdefined and misunderstood, and misapplied 
most oftentimes. So some of those very agencies that might be 
writing regulations or specifying certain useful to these 
technologies have to be very careful they are not being lobbied 
the wrong way.
    One of the things we do as an organization, and we try to 
educate our members so when they do this type of lobbying that 
they are going in and talking about what is the problem you are 
trying to solve. Let us understand and define the problem first 
because then we can plug in different types of solutions. Those 
might be technology. They might be policy. They might be 
people. They might be protocols. They might be all of the 
above.
    But I do not think there is a fundamental understanding at 
the agency level about how to define this problem and get their 
hands around it. It is a massive issue and it is a massive 
problem, and we just have to make sure we are all singing from 
the same sheet of music, and that is a difficult task.

    Ms. Velazquez. Have you come across with any particular 
federal agency that are most likely to ignore any of these 
small firms?

    Mr. Chace. Ignore the needs? I think what happens--I do not 
think any agency is trying to ignore anybody's needs. I think 
it is a resource issue. Truly trying to understand what the 
needs are of those small constituencies because eventually the 
small constituencies all add up to one big constituency if you 
ignore it.

    Ms. Velazquez. But it is very easy for bureaucrats in 
Washington--

    Mr. Chace. Very easy.

    Ms. Velazquez. --and I am sorry, I do not intend to sound 
like a Republican, I am a proud Democrat.
    [Laughter.]

    Ms. Velazquez. But you know, there is--and they issue rules 
and regulations without regard to the economic impact that--

    Mr. Chace. That is right.

    Ms. Velazquez. --this might have on small businesses, but 
also it is not only to explain those rules and regulations for 
small businesses. If there is any type of outreach coming from 
the agencies plus--

    Mr. Chace. I would say there is minimal outreach now, and 
that would be one of the programs. It is a totally different 
discussion. I think this is again focusing on the small 
business aspect of this, but I think there desperately needs to 
be some outreach from the agencies to help.
    As we talked about before, what do I do to assess my risk? 
How do I do that? And do I need to spend thousands and 
thousands of dollars just to get an assessment to find out I do 
not need security? I mean, that is not fair either.
    So we have to make sure that the government has put out the 
resources, and Justice is trying to do some of this through the 
COPs program and some of the work that they are doing with 
building the public/private partnerships. They are trying to 
put out the models that demonstrate to small businesses and 
downtown partnerships how you can work together and invest the 
resources you have, but there needs to be a better organized 
effort on that.

    Mr. Shuster. Ms. Velazquez, you do not sound like a 
Republican. You sound like a defender of small business.

    Ms. Velazquez. You bet.

    Mr. Shuster. You have been in this Committee for a number 
of years, and I appreciate that.
    One last question that I have about insurance, and you can 
educate me on this. My understanding is that there is terrorism 
risk insurance out there now in places like, you know, Madison 
Square Garden, for instance, I would think would have that type 
of insurance.
    What in the insurance industry is going on as far as that 
goes and how is that affecting companies and facilities buying 
security equipment? Mr. Orszag?

    Mr. Orszag. A couple of comments. One is--I mean, my 
response to the earlier question was really where I think 
things should be evolving towards, not what we can immediately 
do. My view is that the terrorism insurance market is not a 
particularly efficient market at this point. There are several 
problems in it.
    One is we do have a federal reinsurance program, but there 
is a basic underlying problems, which is that you can be 
dealing with catastrophic losses here, and the insurance firms 
in order to be offering reasonably priced product need to be 
able to lay off that risk on some other entity. For really big 
terrorist attacks, I think the natural entity is the federal 
government.
    I personally would have actually priced that reinsurance, 
in other words, charged the insurance firms for providing that 
service to them. That was not part of the legislation that was 
enacted, but that is one issue that clearly insurance firms 
will need some ability to lay off risk either to the federal 
government or to financial--the really deep, broad financial 
markets as a whole.
    A second issue has to do with pricing that sort of 
actuarial process. Insurance firms did not have a lot of 
experience in figuring out how to price terrorism insurance, 
and in fact some people thought that this was something that 
they just could not do.
    There has been significant progress, perhaps not adequate, 
but significant progress in developing the modeling that would 
be behind that. It is important to realize there are lots of 
things that do not happen a lot, and that are hard to predict 
that insurance firms do study and do provide insurance against.
    So in my view, and this is a view of the Congressional 
Budget Office also, it is not necessarily the case that they 
cannot provide that kind of insurance.
    And then finally, there is sort of the demand side. Even if 
we got an efficient market on the supply side, would this be 
demanded? I will reluctantly say in this context that in 
certain settings I think we may need to mandate anti-terrorism 
insurance.
    The reason for that is that when you make insurance 
voluntary you have all sorts of selection problems that the 
firms that are the most vulnerable or think they are the most 
vulnerables are the only ones who purchase it, and it leads, 
just like in health insurance and annuities markets and other 
insurance products, it is selection effects where the market 
can, even if in theory would be efficient, sort of blow up, or 
that is not a particularly good phrasing in this context--could 
not operate efficiently.
    So there are a variety of things that clearly need to be 
tackled. The market is operational but not optimal right now, 
and improvements are clearly warranted, but I think those 
improvements could be made if we focused our attention on them.

    Mr. Shuster. I will let you go but I just want to make one 
comment. I would argue insurance companies have laid off that 
expense. As a small business owner after 9/11, my property and 
casualty rates went up, and my building did not burn down. You 
know, we did not have any problems. It was all because of what 
happened on 9/11.
    Go ahead, Mr. Chace.

    Mr. Chace. I just wanted to make an observation. If you 
recall after Hurricane Andrew hit Florida, basically your 
insurance companies were socked with a major, major bill, and 
we can use that. When we are talking about catastrophic event, 
we can use that as a benchmark or a tool to say what will 
happen if we had the impact of another major terrorist attack, 
what would happen.
    I would say, for instance, in the State of Florida 
instance, the insurance companies packed up and said we are not 
insuring anybody in Florida anymore. Sorry, you are out of 
luck, and we do not care. If you want insurance for this, we 
are not going to give it to you. So the State of Florida had to 
come in with some bailout on that.
    I would say also that we have to be very careful about 
creating another impact of an event. For instance, insurance, 
if they are hit very hard by multiple attacks in the United 
States, what does that do to the insurance rates, number one? 
Number two, what does it do to the cash flow that they then 
have to begin to payout on those? And you would bankrupt almost 
an entire industry.
    So you have to be very careful that you are not setting up 
one potential solution that is going to backfire on you and 
offer some false security in terms of that.

    Mr. Shuster. Anyone else care to comment?

    Mr. Hyslop. Yes. I have done some work with--tried to do 
some work with insurance companies on offering programs to them 
where if you did certain things in security, their rates would 
go down. I have to tell you they have absolutely no interest in 
lowering their rates at all.
    Insurance companies are about selling insurance, and I 
would agree that they really do not have a good way of rating a 
terrorist risk, so they are scared to death of selling that 
kind of insurance.
    Right now, and I have talked to a couple of the major ones 
in the country, they are like they do not want to know, hands-
off, call us in 10 years maybe.

    Mr. Shuster. Anybody else care to--

    Mr. Ducey. Just going back to the question, Representative 
Velazquez, you had asked if the agencies are ignoring small 
businesses.
    There is one agency out there that I think a lot of people 
are turning to called the Technical Support Working Group and 
also HSARPA that is developing new technologies. And as good as 
work that they are doing, they are, in my opinion, way 
underresourced or way underfunded in terms of being able to 
look at all the different technologies.
    We have gotten grants through them, and they have been very 
good. We have developed products and helped them and get them 
commercialized. They are still in the process. But at the end 
of the day I know there is a lot more products that we would 
also like to get through them as well as other companies, and 
frankly, they are just underresourced.

    Mr. Chace. I would like to, if I could, bolster that too 
because we work also with the Technical Solutions Working 
Group. It is the Department of Energy. It is procurement 
officials that get together and talk about procuring 
technologies for the U.S. Government. And they have reached 
out. We are helping to develop performance-based testing 
standards with them through Sandia Labs and some of the other 
testing agencies through DHS.
    But I agree, they are severely underresourced, and any kind 
of activity that could put some resources into their hands 
would help them begin to test products so they would be 
products the government could procure that they know work to a 
certain level.
    For instance, you know, if you have a camera in the middle 
of a desert, they are testing to see if that camera will work 
under those conditions. It is not a pass/fail. It is just 
basically environmental testing. And then GSA will help to put 
that on their schedule list to say this is something that has 
been tested, and we can pretty much rely on the testing and say 
it will work under the following conditions so the government 
is not repurchasing equipment because it did not work the first 
time.
    So I totally support that. It is a very good activity.

    Mr. Ducey. Other agencies will rely on that to know--

    Mr. Chace. That is right.

    Mr. Ducey. --this is where we can turn to to find these 
technologies, to find the right products and services to help 
us.

    Mr. Chace. And then the incentives kick in, and then you 
can say that is great, so now I know that I am buying something 
that the government has actually tested to say it will work, 
and that is very helpful.

    Mr. Shuster. Ms. Velazquez, do you have anymore questions?

    Ms. Velazquez. I am not quite clear if I understand what 
you are saying. Small businesses that provide the type of 
technology for our government, and they are not getting the 
contracts with the government? They are not winning those 
contracts?

    Mr. Ducey. Well, I guess it is three different things. If I 
am a small business and I am trying to protect my restaurant or 
whatever, and for whatever reason I want to protect myself 
against a harmful act, the first thing is that a lot of the 
technologies out there are not priced sufficiently or not 
developed sufficiently to be able to help that restaurant.
    What HSAPRA and Technical Support Working Group are doing 
is basically funding companies, other small businesses who 
develop those products to try to get them into a form that they 
can then be commercialized so that then I can market it to 
that.
    In addition to that, they are also sort of screening the 
products so that the small restaurant owner does not have to go 
through 15 different products to decide, I wonder if this one 
works better than that one or whatever. This way the group 
itself is going to say, no, this is the one that works, it is 
the technology. We took it from, you know, let us say the omega 
stage, you know, to the way that the product could be 
commercialized and sold to you, and therefore here is our stamp 
of approval, and here you go.

    Ms. Velazquez. Thank you.

    Mr. Shuster. Okay. Well, I want to take this opportunity to 
thank you all again for being here today, and this is a huge 
problem. I think that it does take a number of different--it 
takes the insurance industry and government, but I think this 
is an important part of it, putting on a tax incentive to get 
our businesses to look at this and invest in these assessments, 
and the technology to protect their businesses, and in the long 
run I think it does not exacerbate our financial picture. It 
actually helps. It becomes a multiplier effect, one of you used 
that term. When you have small business and business out there 
protecting themselves, it is, I think, less burden on the 
federal government that we have to spend those resources.
    So again thank you all very much. I appreciate your time 
and your testimony, and with that the hearing is adjourned.
    [Whereupon, at 11:11 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6551.001
    
    [GRAPHIC] [TIFF OMITTED] T6551.002
    
    [GRAPHIC] [TIFF OMITTED] T6551.003
    
    [GRAPHIC] [TIFF OMITTED] T6551.004
    
    [GRAPHIC] [TIFF OMITTED] T6551.005
    
    [GRAPHIC] [TIFF OMITTED] T6551.011
    
    [GRAPHIC] [TIFF OMITTED] T6551.012
    
    [GRAPHIC] [TIFF OMITTED] T6551.013
    
    [GRAPHIC] [TIFF OMITTED] T6551.014
    
    [GRAPHIC] [TIFF OMITTED] T6551.015
    
    [GRAPHIC] [TIFF OMITTED] T6551.006
    
    [GRAPHIC] [TIFF OMITTED] T6551.007
    
    [GRAPHIC] [TIFF OMITTED] T6551.008
    
    [GRAPHIC] [TIFF OMITTED] T6551.009
    
    [GRAPHIC] [TIFF OMITTED] T6551.010
    
    [GRAPHIC] [TIFF OMITTED] T6551.016
    
    [GRAPHIC] [TIFF OMITTED] T6551.017
    
    [GRAPHIC] [TIFF OMITTED] T6551.018
    
    [GRAPHIC] [TIFF OMITTED] T6551.019
    
    [GRAPHIC] [TIFF OMITTED] T6551.020
    
    [GRAPHIC] [TIFF OMITTED] T6551.021
    
    [GRAPHIC] [TIFF OMITTED] T6551.022
    
    [GRAPHIC] [TIFF OMITTED] T6551.023
    
      

                                 <all>
</pre></body></html>
